TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Implementation of Fiscal Year 2013
                        Sequestration Budget Reductions



                                          June 12, 2014

                             Reference Number: 2014-10-025




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


IMPLEMENTATION OF FISCAL                              In addition, implementation of the mandated
YEAR 2013 SEQUESTRATION BUDGET                        sequestration cuts, coupled with a trend of lower
REDUCTIONS                                            budgets, reduced staffing, and the loss of
                                                      supplementary funding for the implementation of
                                                      the Patient Protection and Affordable Care Act
Highlights                                            of 2010, collectively affected the IRS’s ability to
                                                      effectively deliver its priority program areas,
                                                      including customer service and enforcement
Final Report issued on June 12, 2014
                                                      activities in FY 2013.
Highlights of Reference Number: 2014-10-025           For example, in FY 2013, IRS customer service
to the Internal Revenue Service Deputy                representatives provided a Level of Service to
Commissioner for Operations Support.                  taxpayers of 61 percent compared to 68 percent
                                                      in FY 2012. In addition, examinations of
IMPACT ON TAXPAYERS                                   individual taxpayers declined more than
Sequestration is a process of automatic, largely      five percent in FY 2013 compared to FY 2012
across-the-board spending reductions required         examinations. Collection activities initiated by
by law to meet or enforce certain budget policy       the IRS, such as taxpayer liens, levies, and
goals. On March 1, 2013, the President issued         property seizures, declined by approximately
a sequestration order reducing budgetary              33 percent.
resources across the Federal Government for
                                                      WHAT TIGTA RECOMMENDED
the remainder of Fiscal Year (FY) 2013 in order
to reduce the Federal budget deficit.                 TIGTA made no recommendations as a result of
                                                      the work performed during this review.
WHY TIGTA DID THE AUDIT                               However, key IRS officials reviewed this report
Our objective was to evaluate the process used        prior to its issuance and agreed with the facts
to allocate the required sequestration reductions     and conclusions presented.
in the IRS’s FY 2013 budget.
WHAT TIGTA FOUND
Overall, the IRS generally took reasonable steps
to plan for the required sequestration spending
reductions in its FY 2013 budget, and the IRS
monitored the status of those reductions. The
IRS was required to submit an operating plan
within 30 days of enactment of the annual
appropriations legislation.
Our analysis of the IRS’s year-end budget for
FY 2013 determined that the IRS achieved the
overall savings it planned in each of its operating
appropriations. However, because savings
achieved by cost area varied widely from
budgeted amounts, the IRS needed to
significantly revise its post-sequestration budget.
As part of this revision, funds from cost areas
with greater than planned savings were
reallocated to other cost areas. The IRS also
reduced its planned furlough days from seven
days to three days.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 12, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Implementation of Fiscal Year 2013 Sequestration
                             Budget Reductions (Audit # 201310030)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 implementation of Fiscal Year 2013 sequestration budget reductions. The overall objective of
 this review was to evaluate the process used to allocate the required sequestration reductions in
 the IRS’s Fiscal Year 2013 budget. This audit is included in our Fiscal Year 2014 Annual Audit
 Plan and addresses the major management challenge of Achieving Program Efficiencies and
 Cost Savings.
 The Treasury Inspector General for Tax Administration made no recommendations as a result of
 the work performed during this review. However, key IRS officials reviewed this report prior to
 its issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the IRS managers affected by the report conclusions.
 If you have any questions, please contact me or Gregory D. Kutz, Assistant Inspector General for
 Audit (Management Services and Exempt Organizations).
                                 Implementation of Fiscal Year 2013 Sequestration
                                               Budget Reductions




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Sequestration Spending Cuts Were Proportionally Allocated Among
          the Internal Revenue Service’s Four Operating Appropriations................... Page 3
          Sequestration, Coupled With a Trend of Lower Budgets, Affected the
          Internal Revenue Service’s Ability to Effectively Deliver Its Priority
          Program Areas .............................................................................................. Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Detailed Chart of Internal Revenue Service
          Fiscal Year 2013 Cost Area Spending (in Thousands) ................................. Page 15
        Implementation of Fiscal Year 2013 Sequestration
                      Budget Reductions




                 Abbreviations

ACA        Patient Protection and Affordable Care Act of 2010
CFO        Chief Financial Officer
FTE        Full-Time Equivalent
FY         Fiscal Year
IRS        Internal Revenue Service
TIGTA      Treasury Inspector General for Tax Administration
                            Implementation of Fiscal Year 2013 Sequestration
                                          Budget Reductions




                                            Background

The Internal Revenue Service (IRS) is the largest bureau of the Department of the Treasury and
has primary responsibility for administering the Federal tax system. The IRS’s role is unique
within the Federal Government in that it collects the revenue that funds the Government and
administers the Nation’s tax laws. It also works to protect taxpayer dollars by detecting and
preventing the growing risk of fraudulent tax refunds and other improper payments.
The IRS has four appropriations, of which Taxpayer Services, Enforcement, and Operations
Support are the three largest. The Taxpayer Services appropriation provides funding for
programs that focus on helping taxpayers understand and meet their tax obligations, while the
Enforcement appropriation supports the IRS’s examination and collection efforts. The
Operations Support appropriation provides funding for functions that are essential to the overall
operation of the IRS, such as infrastructure and information services. Finally, the Business
Systems Modernization appropriation provides funding for the development of new tax
administration systems and investments in electronic filing.
The Balanced Budget and Emergency Deficit Control Act, as amended by the Budget Control
Act of 2011,1 required the Office of Management and Budget to calculate and the President to
order on March 1, 2013, reductions in budgetary resources. These spending reductions applied
evenly to all non-exempt appropriations within applicable Federal agencies, including the IRS.
As a result of the Balanced Budget and Emergency Deficit Control Act, the IRS was required to
reduce planned spending from its appropriations by $594 million for Fiscal Year (FY)2 2013.
The IRS was also required in FY 2013 to reduce planned spending from its appropriations by
$24 million as the result of an across-the-board rescission. These funding reductions represent a
total decrease of $618 million to IRS’s budget of $11.8 billion, resulting in a revised annual
budget of $11.2 billion.
Overall, the IRS’s FY 2013 budget was almost $1 billion less than its FY 2010 budget as a result
of the FY 2013 rescission and sequestration3 combined with declines in the IRS’s FYs 2011 and
2012 budgets. The IRS’s FY 2014 budget is comparable to its FY 2013 funding, at
approximately $11.2 billion. However, in FY 2014, Congress granted the IRS an additional
$92 million solely to improve the delivery of services to taxpayers, to improve the identification
and prevention of refund fraud and identity theft, and to address international and offshore

1
  Pub. L. No. 112-25, 125 Stat. 240 (2011).
2
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
3
  Sequestration is a process of automatic, largely across-the-board spending reductions to meet or enforce certain
budget policy goals.
                                                                                                           Page 1
                         Implementation of Fiscal Year 2013 Sequestration
                                       Budget Reductions



compliance issues, which represents a small increase in the IRS’s budget from FY 2013. Subject
to statutory provisions, these additional funds may be transferred by the IRS for use into its
Enforcement, Operations Support, and/or Taxpayer Services appropriations and are available for
use through FY 2015. Figure 1 illustrates a year-by-year comparison of the IRS’s budgets for
the period FY 2009 through FY 2014.
             Figure 1: IRS Enacted Budgets for FYs 2009 Through 2014
                                   (in Millions)

                      IRS Enacted Budgets FYs 2009‐2014
            $12,400
            $12,200
            $12,000
            $11,800
            $11,600
            $11,400                                                     IRS Enacted Budgets
                                                                        FYs 2009‐2014
            $11,200
            $11,000
            $10,800
            $10,600
                        FY   FY   FY   FY   FY   FY
                       2009 2010 2011 2012 2013 2014
           Source: The IRS’s FYs 2011, 2013, and 2015 Budget Request, Congressional Budget Submission.

This review was performed at the IRS offices of the Chief Financial Officer (CFO), Human
Capital Officer, and Small Business/Self-Employed Division in Washington, D.C., and with
information obtained from the Wage and Investment Division, Agency-Wide Shared Services,
the Office of Procurement, the Office of Physical Security and Emergency Preparedness, the
Affordable Care Act Office, and the Office of the Chief Technology Officer during the period
August 2013 through March 2014. This review focused on the budgetary cuts in the four largest
cost areas the IRS originally planned to reduce as a result of the $618 million budget reduction.
These four areas combined account for approximately 87 percent of the $618 million.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.
                                                                                                   Page 2
                               Implementation of Fiscal Year 2013 Sequestration
                                             Budget Reductions




                                         Results of Review

Sequestration Spending Cuts Were Proportionally Allocated Among
the Internal Revenue Service’s Four Operating Appropriations
Overall, the IRS generally took reasonable steps to plan for the required sequestration spending
reductions in its FY 2013 budget and monitored the status of those reductions. The CFO was
responsible for ensuring that the IRS reduced its appropriated budget by the five percent
requirement stipulated under sequestration and monitoring the implementation of these cuts
through the remainder of the fiscal year.

Management of the FY 2013 reduced budget
In order to implement the $618 million budget reduction in FY 2013 required by the
sequestration and rescission, the IRS developed a modified budget with reduced spending
expectations proportionally allocated among its four operating appropriations as required by the
Balanced Budget and Emergency Deficit Control Act. In April 2013, the IRS requested and
subsequently received approval from Congress to transfer up to $75 million from its
Enforcement appropriation to its Operations Support and Taxpayer Services appropriations. The
IRS requested this transfer to allow it to avoid the disproportionate furloughing of employees
dependent upon the appropriation from which they were funded.
In addition, during FY 2013, the IRS was responsible for funding implementation of the Patient
Protection and Affordable Care Act of 2010 (hereafter referred to as the ACA)4 from its own
appropriations. Between FYs 2010 and 2012, the IRS received $488 million from the Health
Insurance Reform Implementation Fund to implement ACA provisions. The Health Insurance
Reform Implementation Fund is administered by the Department of Health and Human Services.
ACA implementation expenses totaling approximately $284 million in FY 2013 were funded
from IRS appropriations, thus further reducing the amount of funds the IRS had available for
other operations. The Health Care and Education Reconciliation Act of 20105 that made
amendments to the ACA contains an extensive array of tax law changes that, absent added
funding, will present budgetary challenges for the IRS in the coming years. The IRS stated that
it did not receive any additional funding from the Health Insurance Reform Implementation Fund
for implementation of the ACA in FY 2013.



4
    Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered section of the U.S. Code).
5
    Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                             Page 3
                            Implementation of Fiscal Year 2013 Sequestration
                                          Budget Reductions



In order to assist it in implementing the required sequestration reductions in its FY 2013 budget,
the IRS developed general estimates of the potential impact of reduced funding on nine of its
priority program areas6 and also broadly evaluated the risks of planned cuts to the delivery of its
priority Information Technology initiatives. The CFO also worked with the various IRS business
units to quickly develop a budget for each business unit that took into account the necessary cost
reductions. The IRS was required to submit an operating plan within 30 days of the enactment of
the annual appropriations legislation.
Budget monitoring was accomplished via the use of status reports to track spending. Figure 2
illustrates the impact of the rescission, sequestration, and the up to $75 million transfer on the
IRS’s budget.
     Figure 2: FY 2013 IRS Budget Reduction by Appropriation (in Thousands)
                 FY 2013
                 Budget       Total FY 2013
              Pre-Rescission Budget Reduction                                                      FY 2013
                   and        (Sequestration  Inter-Appropriation                                 Operating
Appropriation Sequestration   and Rescission)       Transfer                                        Plan
Taxpayer
                        $2,239,703                ($117,150)                      $13,000         $2,135,553
Services
Enforcement             $5,299,367                ($277,189)                    ($73,000)         $4,949,178
Operations
                        $3,947,416                ($206,474)                      $60,000         $3,800,942
Support
Business
Systems                   $330,210                 ($17,272)                         None            $312,938
Modernization
Total                  $11,816,696                ($618,084)                             $0      $11,198,612
Source: IRS FY 2013 Sequestration Operating Plan and IRS FY 2015 Budget Request Congressional Budget
Submission. Note: Figures subject to rounding.

Analysis of FY 2013 sequestration required, planned, and actual cost savings by
selected budget categories
The four largest cost areas the IRS originally planned to reduce as a result of the
$618 million budget reduction were contractor advisory and assistance services ($231 million)

6
 These program areas include Pre-Filing Taxpayer Assistance and Education, Filing and Account Services,
Investigations, Examinations and Collections, Regulatory, Infrastructure, Shared Services and Support, Information
Services, and Business Systems Modernization.
                                                                                                           Page 4
                          Implementation of Fiscal Year 2013 Sequestration
                                        Budget Reductions



employee compensation and awards ($216 million), travel ($49 million), and equipment
($41 million), which combined accounted for approximately $537 million (87 percent) of the
$618 million. However, savings actually achieved in these four areas varied widely from
original budgeted amounts. Figure 3 describes the reductions the IRS planned to achieve in its
original projections and the actual amount of the IRS’s budget reductions on the four selected
budget categories.
    Figure 3: IRS Planned and Actual FY 2013 Year-End Budget Reductions for
                        Selected Cost Areas (in Millions)

                                                          Planned     Actual              Additional or
    IRS Cost                                              Budget     Budget                (Reduced)
      Area                    Description                Reductions Reductions              Savings
                    Includes costs related to
 Personnel
                    salaries for full-time and                  $216            $276                   $60
 Compensation
                    part-time employees.
                    Includes costs of travel related
 Travel             to training and operational                   $49            $92                   $43
                    activities.
                    Includes costs of purchases of
                    information technology
 Equipment                                                        $41            $50                    $9
                    software and hardware and
                    telecommunication services.
                    Includes costs of professional
                    support services, studies, and
 Advisory and
                    technical services procured
 Assistance                                                     $231             $46                ($185)
                    from non-Federal sources or
 Services
                    other units within the Federal
                    Government.
 Total                                                          $537            $464                 ($73)
Sources: Financial Management Codes Handbook, IRS FY 2013 Sequestration Operating Plan, and IRS Integrated
Financial System.




                                                                                                   Page 5
                            Implementation of Fiscal Year 2013 Sequestration
                                          Budget Reductions



Personnel compensation
The IRS planned to fund 89,858 full-time equivalent (FTE) employees7 before budget reductions
and 86,381 FTEs following the sequestration and rescission reductions. This represents an
overall reduction of more than 3,000 planned FTEs which were not filled due to the hiring freeze
the IRS has had in place (with very limited exceptions) since December 2010. As IRS budgets
have decreased, so have the number of employees working in the IRS. In August 2013, the
Treasury Inspector General for Tax Administration (TIGTA) reported8 that since 2010,
approximately 8,000 full-time positions have been lost, including approximately 5,000 from
front-line personnel. The IRS ended FY 2012 with 89,551 employees, and ended FY 2013 with
83,613 employees. In addition, the IRS implemented three employee furlough days in FY 2013.9
Personnel compensation costs were also reduced by the elimination of performance awards for
bargaining unit employees in FY 2013. The Office of Management and Budget issued a
Memorandum on February 27, 2013, directing Executive agencies to discontinue all
discretionary monetary awards unless such awards were legally required. On March 25, 2013,
the IRS informed the National Treasury Employee Union that bargaining unit employee
performance awards, calculated to cost $76 million, would not be paid in FY 2013. However, in
January 2014, the IRS decided to distribute reduced performance awards to bargaining unit
employees for FY 2013 performance. This decision was based on negotiations with the IRS
employee union and includes a monetary award pool of $43 million, lower than the originally
calculated $76 million. The IRS also implemented three employee furlough days in FY 2013.
The IRS calculated that salary savings attributable to the three furlough days totaled
approximately $72 million with an additional $16 million in savings attributable to employee
benefits. Overall, the IRS’s budgeted savings in personnel compensation increased from a
planned $216 million to an actual $276 million at the end of FY 2013.

Travel
Although the IRS indicated that it planned to save $49 million (8 percent) of its required
$618 million in total savings through reductions in travel costs, it actually achieved a budget
reduction of $92 million in travel costs in FY 2013. As a result, travel cost savings increased
from a projected 8 percent to 15 percent of the required reduction.
Significant savings occurred in the areas of training travel (a reduction from $51 million to
$12 million) and operational travel (a reduction from $116 million to $64 million). The IRS



7
  A measure of labor hours in which one FTE is equal to eight hours multiplied by the number of compensable days
in a particular fiscal year. For FY 2013, one FTE was equal to 2,088 staff hours.
8
  TIGTA, Ref. No. 2013-30-078, Trends in Compliance Activities Through Fiscal Year 2012 p. 4 (Aug. 2013).
9
  The IRS originally planned to implement up to seven furlough days in FY 2013; however, this number was
subsequently reduced to three days.
                                                                                                          Page 6
                           Implementation of Fiscal Year 2013 Sequestration
                                         Budget Reductions



stated that training-related travel savings occurred through an increase in the use of virtual
training opportunities, reduced employee travel to training sites, and a revised approval process
for IRS employees attending training courses. IRS management stated that some operational
travel savings came from reduced managerial visits to field offices. Additionally, the IRS
implemented new guidelines aimed at better controlling executive travel. These new guidelines
require executives to receive approval from the IRS Commissioner to travel more than 75 nights
per fiscal year. A July 2013 TIGTA report10 found that in FY 2012, the IRS had 65 executives
who traveled for 75 nights or more. In FY 2013, the IRS stated that only eight executives
traveled 75 nights or more.

Equipment
Planned savings in costs for equipment purchases were originally expected to be $41 million
(7 percent) of the $618 million FY 2013 budget reduction. Again, the IRS was able to achieve
additional budgeted savings in equipment costs for a total equipment costs reduction of
$50 million, 8 percent of the $618 million reduction. Equipment cost savings are attributable
primarily to the IRS’s Information Technology function. Information Technology function
officials stated that they reduced costs by delaying infrastructure and other acquisitions such as
servers, routers, and cell phones.

Advisory and assistance services
Although the IRS originally planned to achieve $231 million (37 percent) of its required
$618 million in total savings through reductions in advisory and assistance (contract) services
such as management and professional support, studies, and technical services, its adjusted
year-end budget actually indicated a savings of $46 million related to this area. As a result, cost
savings decreased from a projected 37 percent of the total required reduction to 7 percent of the
required reduction. This difference between the planned and actual cost savings occurred
because, as the IRS achieved savings in other cost areas beyond what was originally budgeted, it
was able to reprogram funds to support contracted and advisory services and reduce the amount
of cuts in this area while still implementing the overall budget reduction required by the
sequestration. The majority of FY 2013 funding relating to the advisory and assistance services
cost area was designated for information technology contract spending.

Summary of total FY 2013 sequestration required, planned, and actual cost
savings
Our overall analysis of the IRS’s year-end budget for FY 2013 indicates that the IRS did achieve
the overall savings of $618 million required by the sequestration as well as the total savings it


10
  TIGTA, Ref. No. 2013-IE-R007, Analysis of Executive Travel Within the Internal Revenue Service p. 6
(Jul. 2013).
                                                                                                        Page 7
                         Implementation of Fiscal Year 2013 Sequestration
                                       Budget Reductions



planned in each of its operating appropriations. However, because savings achieved by cost area
varied widely from budgeted amounts, the IRS needed to significantly revise its
post-sequestration budget. As part of this revision, funds from cost areas with greater than
planned savings were reallocated to other cost areas. The IRS also reduced its planned furlough
days from seven days to three days. Appendix IV illustrates the total actual impact of the IRS’s
required budget reductions on all major spending categories.
Ultimately, the IRS ended FY 2013 with a balance of approximately $214 million in multi-year
accounts relating primarily to information technology, Business Systems Modernization, and the
Community Volunteer Income Tax Assistance matching grants program. These multi-year
account funds are available for future use and can be used only for the purposes specified in the
IRS’s annual appropriation. For example, multi-year information technology funds can be used
only for information technology support, Business Systems Modernization funding is
specifically for capital asset acquisition of information technology systems, and multi-year
matching grants funding is for tax return preparation assistance.
CFO management advised us that having significant balances of unspent multi-year funding is a
normal business practice and, in an uncertain budget environment, is a critical tool to ensure
sound financial management. These funds allow the IRS to have reasonable assurance that funds
will be available in future years to complete multi-year projects.
The IRS also informed TIGTA that it spent approximately $284 million to implement the ACA
in FY 2013. The IRS spent approximately $29 million less on ACA implementation activities in
FY 2013 than originally expected. IRS management stated that this spending reduction occurred
largely through reduced personnel costs. In addition, among the savings achieved by the IRS
was a reduction in the area of physical security, totaling approximately $2 million from an initial
budget of approximately $125 million. The IRS attributed these savings, in part, to program
efficiencies and the increased use of risk analysis for expending funds. The IRS stated that
building security was not reduced to achieve these savings.

Sequestration, Coupled With a Trend of Lower Budgets, Affected the
Internal Revenue Service’s Ability to Effectively Deliver Its Priority
Program Areas
Implementation of the mandated sequestration cuts, coupled with a trend of lower budgets,
reduced staffing, and the loss of supplementary funding for the implementation of the ACA,
affected the IRS’s ability to effectively deliver its priority program areas, including customer
service and enforcement activities. Our analysis of select customer service and enforcement
statistics indicates that the downward trend in these performance areas may continue.




                                                                                              Page 8
                             Implementation of Fiscal Year 2013 Sequestration
                                           Budget Reductions



Customer service trends
In FY 2013, IRS customer service representatives provided a Level of Service to taxpayers of
61 percent. The IRS’s Level of Service is a measure of the relative success rate of taxpayers
who call the IRS’s 27 toll-free telephone lines seeking assistance from an assistor. The IRS’s
61 percent Level of Service in FY 2013 compares unfavorably to its FY 2012 Level of Service of
68 percent. The IRS’s Level of Service in FY 2013 was its lowest in the last five fiscal years.
Figure 4 shows the IRS’s Level of Service performance over the previous five fiscal years.
                 Figure 4: IRS Level of Service for FYs 2009 Through 2013
        FY                    2009             2010             2011                2012                2013
 Level of Service             70%              74%              70%                 68%                 61%
Source: IRS FY 2013 Enforcement and Service Results.

In addition, the IRS’s adjustments correspondence inventory notably increased in FY 2013. This
correspondence includes taxpayers responding to notices informing them of proposed increases
in their tax liability situations. The IRS had an increase of more than 7 percent of taxpayer
correspondence in its adjustments inventory at the end of FY 2013.11 Figure 5 shows the IRS’s
adjustments correspondence inventory over the previous five fiscal years.
Figure 5: IRS Adjustments Correspondence Inventory for FYs 2009 Through 2013
           FY                   2009              2010              2011               2012               2013
 Ending
 Adjustments
                                775,960           606,029            920,768          1,028,539         1,103,509
 Correspondence
 Inventory
Source: IRS Joint Operations Center Weekly Enterprise Adjustments Inventory Report.

Enforcement trends
The IRS collected $53.3 billion in enforcement revenue12 in FY 2013, which compares favorably
to the $50.2 billion enforcement revenue the IRS collected in FY 2012. However, the IRS
explained that $2.6 billion of the FY 2013 amount was related to a small number of cases in
which revenue came in after appeals or litigation pertaining to cases worked in prior years. The
IRS had originally expected this revenue to be accounted for in its FY 2012 collections. Figure 6
depicts the revenue collected from enforcement efforts during the previous five fiscal years.


11
   Adjustments inventory relates to taxpayer correspondence submitted in response to IRS proposals increasing the
liability of the taxpayer. Additionally, 53 percent of the adjustments inventory correspondence was over-age at the
end of FY 2013, compared to 48 percent over-age adjustments inventory at the end of FY 2012.
12
   Revenue collected through the IRS’s major enforcement programs of Examination, Collection, or Automated
Underreporter.
                                                                                                             Page 9
                           Implementation of Fiscal Year 2013 Sequestration
                                         Budget Reductions



     Figure 6: IRS Enforcement Revenue Collected for FYs 2009 Through 2013
                                  (in Billions)
         FY                        2009          2010       2011        2012            2013
 Enforcement Revenue               $48.9         $57.6      $55.2       $50.2           $53.3
Source: IRS FY 2013 Enforcement and Service Results.

Key examination and collection statistics also showed declines. For example, examinations of
individual tax returns declined from 1,481,966 in FY 2012 to 1,404,931 in FY 2013, an
approximate five percent decrease. Further, collection activities initiated by the IRS, such as
taxpayer liens, levies, and property seizures declined from 3,669,663 in FY 2012 to 2,457,647 in
FY 2013, an approximately 33 percent decrease. Figure 7 depicts examinations of individual tax
returns from FY 2009 through FY 2013. Figure 8 depicts collection activities initiated by the
IRS, such as taxpayer liens, levies, and property seizures from FY 2009 through FY 2013.
Figure 7: IRS Examinations of Individual Tax Returns for FYs 2009 Through 2013
                                (in Thousands)
         FY                 2009            2010         2011          2012            2013
 Examinations               1,426           1,581        1,564         1,482           1,405
Source: IRS FY 2013 Enforcement and Service Results.

     Figure 8: IRS Collection Enforcement Actions for FYs 2009 Through 2013
                                  (in Thousands)
        FY                  2009            2010         2011          2012            2013
 Enforcement
                            4,444           4,704        4,792         3,670           2,458
 Actions
Source: IRS FY 2013 Enforcement and Service Results.

Overall, IRS data show that funding has affected key customer service and enforcement efforts.
With respect to sequestration oversight, the IRS monitored the implementation of the required
budget cuts and made adjustments in instances of larger than initially planned savings. For
example, furlough days were reduced from a planned seven days to the three actual days taken.
Further, although the IRS did need to modify its post-sequestration budget, these modifications
did not materially affect the overall allocation of the budget cuts among the four IRS operating
appropriations.




                                                                                          Page 10
                             Implementation of Fiscal Year 2013 Sequestration
                                           Budget Reductions



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the process used to allocate the required sequestration
reductions in the IRS’s FY 2013 budget. To accomplish our objective, we:
I.       Determined the steps taken by the IRS to plan for the FY 2013 sequestration.1
         A. Reviewed relevant guidance, such as reports, regulations, and orders for compliance
            with the Balanced Budget and Emergency Deficit Control Act, as amended by the
            Budget Control Act of 2011.2
         B. Analyzed any guidance prepared by the CFO to assist IRS business units in allocating
            the required cuts.
         C. Analyzed any guidance prepared by the IRS business units regarding allocating the
            required cuts.
II.      Determined the overall process used to allocate the required sequestration cuts in
         FY 2013.
         A. Reviewed the methodology used to allocate the cuts among the IRS’s appropriations
            and programs/projects/activities.
         B. Evaluated how the labor-related personnel costs were calculated and allocated among
            IRS staff within each appropriation.
             1. Determined how the IRS allocated cuts in personnel costs among furloughs,
                reductions in authorized staffing levels, and/or other personnel cost-reducing
                actions.
             2. Evaluated the impact of the IRS’s decision to suspend awards to IRS employees
                during FY 2013.
             3. Determined whether approval was received for the transfer of up to $75 million
                from the Enforcement appropriation to the Taxpayer Services and Operations
                Support appropriations and obtained supporting documentation.
         C. Evaluated how the cuts to selected non-personnel expenses were allocated within
            each budget appropriation.

1
  Sequestration is a process of automatic, largely across-the-board spending reductions to meet or enforce certain
budget policy goals.
2
  Pub. L. No. 112-25, 125 Stat. 240 (2011).
                                                                                                             Page 11
                        Implementation of Fiscal Year 2013 Sequestration
                                      Budget Reductions



           1. Identified the impact of the budgetary cuts in equipment and advisory and
              assistance services.
           2. Identified what types of travel, such as training or operational, the IRS cancelled
              as a result of the budgetary cut in travel.
III.   Determined whether the IRS is monitoring the impact of reduced FY 2013 operating
       funds on its customer service and enforcement programs.
       A. Reviewed the IRS’s estimates of the impact of the sequestration on FY 2013
          customer service and enforcement programs metrics.
       B. Evaluated the IRS’s efforts to monitor the impact of reduced FY 2013 operating
          funds on its customer service and enforcement programs, the ACA, and physical
          security.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS’s FY 2013 budget
operating plan, Office of Management and Budget Memorandas related to Federal agency
sequestration requirements, IRS internal planning documents relating to expectations for yearly
spending, IRS Integrated Financial System budget reports, and congressional legislation granting
the IRS spending authority. We evaluated these controls by interviewing management,
reviewing the IRS’s budget documents for conformance to initial estimates of FY 2013 spending
and Office of Management and Budget sequestration requirements, and the IRS’s adherence to
congressional allowance for transfer authority.




                                                                                           Page 12
                      Implementation of Fiscal Year 2013 Sequestration
                                    Budget Reductions



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Anthony J. Choma, Audit Manager
Seth A. Siegel, Lead Auditor
Melvin Lindsey, Senior Auditor
James S. Mills, Jr., Senior Auditor
Gary Pressley, Senior Auditor




                                                                                    Page 13
                      Implementation of Fiscal Year 2013 Sequestration
                                    Budget Reductions



                                                                      Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Chief Technology Officer OS:CTO
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Affordable Care Act Office SE:ACA
IRS Human Capital Officer OS:HC
Associate Chief Financial Officer for Corporate Budget OS:CFO:CB
Director, Procurement OS:A:P
Director, Research, Small Business/Self-Employed Division SE:S:R
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Financial Management Services OS:CTO:SP:FM
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Chief Financial Officer OS:CFO
       Chief Technology Officer OS:CTO
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Affordable Care Act Office SE:ACA
       IRS Human Capital Officer OS:HC




                                                                            Page 14
                            Implementation of Fiscal Year 2013 Sequestration
                                          Budget Reductions



                                                                                           Appendix IV

         Detailed Chart of Internal Revenue Service Fiscal
          Year 2013 Cost Area Spending (in Thousands)

                                                                              Planned Budget   Actual Budget
  IRS Cost Area                         Brief Description                        Reduction      Reduction
                                                                                    (A)             (B)
Total personnel       Includes compensation such as salaries, overtime, and
                                                                                    $216,275        $275,528
compensation          awards for employees.
Personnel Benefits    Benefits for currently employed personnel.                     $29,960         $23,651
Benefits of former
                      Benefits for former employees or their survivors.                 $225         ($5,202)
personnel
                      Travel and transportation costs of employees and
Travel                                                                               $48,893         $92,227
                      other persons, while in an authorized travel status.
                      The care of things while in process of being
Transportation of
                      transported and other services incident to the                  $2,404          $4,672
things
                      transportation of things.
Rental payments to
the General           Payments to the General Services Administration for
                                                                                      $8,506         ($2,704)
Services              rental of space and rent related services.
Administration
Rental payments to    Payments to a non-Federal source for rental of space,
                                                                                        $177            $901
others                land, and structures.
Communication,
utilities, and        Payment for information technology, utilities, and
                                                                                     $11,583         $39,292
miscellaneous         miscellaneous charges.
charges
Printing and          Printing and reproduction obtained from the private
                                                                                      $2,606          $4,703
reproduction          sector or from Federal entities.
                      Services acquired by contract including management
Advisory and
                      and professional support, studies, and technical              $231,461         $46,056
assistance services
                      services.
Other services from
non-Federal           Contractual services with non-Federal sources.                    $847         $48,354
sources




                                                                                                     Page 15
                           Implementation of Fiscal Year 2013 Sequestration
                                         Budget Reductions



                                                                              Planned Budget    Actual Budget
  IRS Cost Area                        Brief Description                         Reduction       Reduction
                                                                                    (A)              (B)
Other goods and
                     Purchases from other Federal Government agencies or
services from                                                                        ($1,234)           ($9,122)
                     accounts.
Federal sources
Operation and
maintenance of       Operation and maintenance of facilities.                         $6,933             $7,822
facilities
Research and
                     Contracts for the conduct of research and
development                                                                               $0                $34
                     development.
contracts
Medical Care         Payments to contractors for medical care.                            $0               $457
Operation and
                     Operation, maintenance, repair, and storage of
maintenance of                                                                          $482            $20,129
                     equipment,
equipment
Subsistence and
                     Contractual services for board and lodging.                      $1,622             $2,480
support of persons
Supplies and
                     Commodities                                                      $8,016            $15,533
materials
                     Includes purchases of information technology
Equipment            software and hardware and telecommunication                     $40,945            $49,929
                     services.
Lands and
                     Purchase and improvement of land and structures.                 $8,610            ($3,120)
structures
Grants, subsidies,   Includes payments to States, corporations,
                                                                                        $907               $657
and contributions    associations, and individuals.
                     Benefit payments from the social insurance and
Insurance claims
                     Federal retirement trust funds and payments for losses           ($169)               $204
and indemnities
                     and claims.
                     Charges that may be incurred lawfully for confidential
Unvouchered
                     purposes and are not subject to detailed vouchering or           ($965)             $5,602
expenses
                     reporting.
Total                                                                          $618,084           $618,084
Sources: Financial Management Codes Handbook, IRS FY 2013 Sequestration Operating Plan, and IRS Integrated
Financial System.
Note: Numbers are rounded and may not total. Positive numbers in columns (A) and (B) represent budget
reductions and negative numbers represent budget increases.




                                                                                                        Page 16
